HHS/OIG, Audit -"Audit of Washington's Accounts Receivable System for Medicaid Provider Overpayments,"(A-10-04-00003)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Washington's Accounts Receivable System for Medicaid Provider Overpayments," (A-10-04-00003)
September 13, 2005
Complete Text of Report is available in PDF format (1.11 mb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review was part of a multistate audit.  Our objective was to determine whether the State reported Medicaid provider overpayments pursuant to Federal requirements.  During our audit period, the State did not report Medicaid provider overpayments pursuant to Federal requirements.  The State claimed excess Federal reimbursements of $396,941.  We recommended that the State:  (1) refund $396,941 for unallowable credit adjustments and unreported interest penalty collections; (2) report overpayments on the basis of draft reports unless there is evidence of abuse; (3) determine whether there were any unreported overpayments, unallowable credit adjustments, or unreported interest penalty collections subsequent to our audit period or extended audit period and refund such amounts; (4) ensure that future overpayments, credit adjustments, and interest penalty collections are reported in accordance with Federal requirements; (5) establish an accounts receivable system that properly records, ages, and reports provider overpayments; and (6) establish and implement written policies and procedures for processing and reporting overpayments, credit adjustments, and interest penalty collections.  The State partially agreed with our findings.